Audit of the SEC’s Filing Fees
Program




                                 March 29, 2013
                                 Report No. 514
                                             UNITED STATES
                           SECURITIES AND EXCHANGE COMMISSION
                                       WASHINGTON, D.C.     2.0549

     OFFICE OF
INSPECTOR GENERAL.




                                      MEMORANDUM
                                            March 29, 2013

          To:           Kenneth Johnson, Chief Financial Officer, Office of Financial
                         Man(,'!gement~/

                        c6¥.fi/fc~t r: ~spector Ge
                               I     ,        ~



          From:

          Subject:      Audit of the SEC's Filing Fees Program, Report No. 514

          This memorandum transmits the U.S. Securities and Exchange Commission
          (SEC), Office of Inspector General's (OIG) final report on our audit of the SEC's
          filing fees program. The audit was conducted as part of our continuous effort to
          assess management of the Commission's programs and operations and as a
          part of our annual audit plan.

          The report contains four recommendations which, if fully implemented, should
          strengthen the Office of Financial Management's (OFM) internal controls over
          filing fees policies and procedures. OFM concurred with all the
          recommendations. Your written response to the draft report is included in
          AppendixV.

          Within the next 45 days, please provide the OIG with a written corrective action
          plan that is designed to address the recommendations. The corrective action
          plan should include information such as the responsible official/point of contact,
          timeframes for completing required actions, and milestones identifying how you
          will address the recommendations.
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation you and your staff
extended to our office.

Attachment

cc:    Elisse B. Walter, Chairman
       Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel Gallagher, Commissioner
       Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
       Kay Levy, Assistant Director, Disgorgements and Operations, Office of
        Financial Management




Audit of the SEC’s Filing Fees Program                              March 29, 2013
Report No. 514
                                         Page i
Audit of the SEC’s Filing Fees Program

                            Executive Summary
Background. The U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG) contracted with Williams Adley,
an Independent Public Accountant, to conduct an audit of the SEC’s refund
request processes and management of dormant accounts. The SEC receives
monies through the collection of securities registration, tender offer, merger, and
other fees (filing fees) from registrants. The SEC records the filing fees it collects
as revenue. However, if registrants submit payments to the SEC that are in
excess of the actual fee that is due for a filing, the SEC records the excess
payment in the registrant’s deposit liability account until it is earned by the SEC
for future registrant filings. The SEC returns amounts in the deposit liability
account to the registrant if the account has not had any activity against it for three
years, or upon request from the registrant.

According to the fiscal years 2009 to 2011 U.S. Government Accountability
Office’s (GAO) financial statement audits of the SEC, GAO identified amounts
recorded in registrant’s deposit liability accounts that were not properly returned
to registrants and amounts that were not properly recognized as revenue in the
correct fiscal year. As a result GAO concluded that the SEC’s controls over
registrant deposits and filing fees collectively represented a significant deficiency.

Subsequently, GAO’s fiscal year 2012 financial statement audit concluded that
the SEC made notable progress in addressing previously reported internal
control deficiencies. As a result of the SEC’s increased controls and significant
efforts to review and return amounts in dormant registrant accounts, as of
September 30, 2012, GAO no longer considered the remaining control
deficiencies in this area, individually or collectively, as a significant deficiency.

Objectives. Williams Adley’s overall audit objectives were to determine whether
(1) OFM had developed written policies and standard operating procedures
covering oversight of the filing fees program; (2) filing fees staff are adequately
trained and have the requisite skills needed to carry out their duties and
responsibilities; (3) the EDGAR Momentum system used to track filing fees
refund requests is appropriate; (4) filing fees backlogs and dormant accounts are
properly administered and managed; and (5) filing fees refunds are disbursed by
Treasury to the appropriate registrants as requested.

Results. Williams Adley identified areas where the SEC can strengthen its
internal controls over the office’s current filing fees policies and procedures.
Specifically, the audit found that OFM needs to strengthen its guide, OFM
Audit of the SEC’s Filing Fees Program                                  March 29, 2013
Report No. 514
                                         Page ii
Reference Guide, Chapter 80.03, Filing Fee Revenue, August 2012, in the area
of filing fees. During our system walk through, we found that OFM does not have
a process for confirming registrant bank information. As a result, there is a risk
for unauthorized requests for refunds. In addition, the office needs to strengthen
its policies and procedures related to clearing cancelled refund checks to ensure
a reasonable timeline is established. The lack of a reasonable timeline could
delay refunding registrant refunds.

Further, the SEC needs to complete an analysis of older filing fee registrant
transactions to ensure revenue is properly recognized in its financial reports.
OFM has begun reviewing non-dormant registrant accounts, based on the
expected costs and benefits for each account. However, OFM’s review of non-
dormant registrant accounts has not been fully completed. Completing this task
would strengthen its internal controls over matching revenues to expenses in its
financial reports.

Summary of Recommendations. Based on the results of our audit we
recommended that within its budget constraints, the OFM should modify EDGAR
usage to prevent unauthorized requests for refunds. We also recommended
OFM implement a policy that includes a definitive and reasonable timeline for
reconciling cancelled refund transactions. In addition, OFM should complete its
review of non-dormant registrant accounts based on the cost-benefit analysis the
office has devised.

Management’s Response to the Report’s Recommendations. OIG provided
OFM with the formal draft report on March 20, 2013. OFM concurred with all
recommendations in this report. OIG considers the report recommendations
resolved. However, the recommendations will remain open until documentation
is provided to OIG that supports each recommendation has been fully
implemented.

OFM’s response to each recommendation and OIG’s analysis of their responses
are presented after each recommendation in the body of this report.




Audit of the SEC’s Filing Fees Program                               March 29, 2013
Report No. 514
                                         Page iii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ......................................................................................................... v

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 3

Findings and Recommendations .......................................................................... 4
     Finding 1: Filing Fees Policies and Procedures Can be Improved .................... 4
                   Recommendation 1....................................................................... 6
                   Recommendation 2....................................................................... 6
                   Recommendation 3....................................................................... 6

    Finding 2: Review Procedures over Registrant Deposit Accounts Should
    be Completed ..................................................................................................... 7
                  Recommendation 4....................................................................... 8
Appendices
    Appendix I: Abbreviations................................................................................ 10
    Appendix II: Scope and Methodology............................................................... 11
    Appendix III: Criteria ......................................................................................... 13
    Appendix IV: List of Recommendations ........................................................... 14
    Appendix V: Management Comments.............................................................. 15




Audit of the SEC’s Filing Fees Program                                                            March 29, 2013
Report No. 514
                                                     Page iv
                  Background and Objectives

Background
The U.S. Securities and Exchange Commission (SEC or Commission), Office of
Inspector General (OIG) contracted with Williams Adley, an Independent Public
Accountant, to conduct an audit of the SEC’s refund request processes and
management of dormant accounts. The SEC receives monies through the
collection of securities registration, tender offer, merger, and other fees (filing
fees) from registrants. The SEC records the filing fees it collects as revenue.
However, if registrants submit payments to the SEC that are in excess of the
actual fee that is due for a filing, the SEC records the excess payment in the
registrant’s deposit liability account until it is earned by the SEC for future
registrant filings. The SEC returns amounts in the deposit liability account to the
registrant if the account has not had any activity against it for three years. These
are known as dormant accounts. Conversely, non-dormant accounts had
actively within the past three years. SEC also returns amounts upon request from
the registrant.

In May 2011, the SEC changed the length of time that funds could remain
inactive in the registrants’ deposit liability account from six months to three years.
The SEC stated that this was done to reduce inefficiency and the administrative
burden for both account holders and SEC staff. Increasing this time also allows
greater flexibility to registrants who overpaid the SEC for filings, owe future fees,
and want to apply the overpayment to future registrant filing payments that are
due to the SEC.

Section 6(b)(1) of the Securities Act of 1933 provides that “at the time of filing a
registration statement, the applicant shall pay to the Commission a fee . . .
Section 6(b)(2) states that “[f]or each fiscal year, the Commission shall . . . adjust
the rate required by” Section 6(b)(1). As of October 2012, the filing fees pursuant
to Sections 6(b), 13(e) (repurchases of securities) or 14(g) (proxy solicitations
and statements in corporate control transactions) of the Securities Act of 1933 –
as well as for transaction filings pursuant to the Securities Exchange Act of 1934
– amount to $136.40 per $1,000,000 of the maximum aggregate price at which
an applicant’s securities are proposed to be offered. For aggregate prices below
$1,000,000, the filing fees are prorated (i.e., the amount of fees is calculated by
multiplying the aggregate offering amount by .00013640).

The Office of Financial Management (OFM) is under the Office of the Chief
Operating Officer and is led by the Chief Financial Officer. OFM provides
assistance to the Office of the Chief Operating Officer in formulating the SEC’s
budget and authorization requests, monitoring the utilization of agency
resources, and developing, overseeing, and maintaining the SEC’s financial

Audit of the SEC’s Filing Fees Program                                  March 29, 2013
Report No. 514
                                         Page 1
systems. OFM’s activities include cash management, accounting, fee
collections, travel policy deployment, and oversight of budget justifications and
budget execution. Returning excess filing fees is also an OFM activity. OFM’s
Filing Fees Branch (FFB) administers this function for the SEC. The FFB is
headed by the Chief of Filing Fees and has 14 government employees and 12
contractor workers. According to prior U.S. Government Accountability Office’s
(GAO) financial statement audits of the SEC, GAO identified amounts that were
recorded in registrant’s deposit liability accounts that were not properly returned
to registrants and amounts that were not properly recognized as revenue in the
correct fiscal year. As a result, GAO concluded in the 2009 and 2010 financial
statement audits that the untimely review and recognition of revenue in the
incorrect period represented a significant deficiency in the SEC’s internal control
over the registrant deposit account balances, which resulted in misstating filing
fees revenue and related registrant deposit liability account amounts in the
current period. The SEC uses the EDGAR1 system to collect, validate, index and
accept the submissions of forms filed by registered companies. EDGAR
Momentum, also known as Fee Momentum, is a financial system that maintains
accounting information pertaining to filing fees. This system also interfaces with
EDGAR.

As in prior years, the GAO fiscal year 2011 financial statement audit testing of
filing fees transactions identified amounts recorded in the registrant deposit
liability account that had not been properly returned to registrants and amounts that
had not been properly recognized as revenue in the correct fiscal year. As a
result GAO concluded that the SEC’s controls over registrant deposits and filing
fees collectively represented a significant deficiency.

Subsequently, the fiscal year 2012 financial statement audit concluded that the
SEC made notable progress in addressing internal control deficiencies GAO
previously reported. Specifically, OFM eliminated the backlog of registrant
accounts that had no activity for three years by reviewing the account history,
and where appropriate, returning funds to registrants or to the U.S. Department
of the Treasury (Treasury). OFM developed additional controls that were put in
place to monitor and review accounts that were approaching three years and had
no activity. In addition, OFM implemented new controls such as strengthening
review procedures over fee-bearing filings and testing procedures to estimate
financial statement risk resulting from unrecorded revenues. As a result of the
SEC’s increased controls and significant efforts to review and return dormant
registrant accounts, as of September 30, 2012 GAO no longer considered the
remaining control deficiencies in this area, individually or collectively, as a
significant deficiency. Also, we reviewed OFM’s schedule of dormant accounts
and interviewed FFB staff regarding the status of those accounts classified as
dormant and concluded this issue is no longer a problem.



1
    EDGAR - Electronic Data Gathering Analysis and Retrieval System.
Audit of the SEC’s Filing Fees Program                                  March 29, 2013
Report No. 514
                                                 Page 2
We identified some insignificant issues related to training in which improvements
could be made. However, we believe that overall training of FFB staff is
adequate and they have the requisite skills needed to carry out their duties and
responsibilities.

Finally, we performed refund disbursement confirmation testing to achieve the
goal of determining whether the disbursements from Treasury are sent to the
right registrant as requested. Based on our testing and review, we did not
identify any exceptions. The sample disbursements that were selected for our
testing were sent to the appropriate registrants as requested.

Objectives
Objectives. Williams Adley’s overall audit objective was to determine whether
OFM’s current filing fees policies and procedures are appropriate and internal
controls exist to ensure filing fees to related assets and liabilities are safeguarded
and properly accounted in the SEC’s financial reports.

Specifically, our objectives were to determine whether:

    •  OFM had developed written policies and standard operating
       procedures covering oversight of the filing fees program;
    • Filing fees staff are adequately trained and have the requisite skills
       needed to carry-out their duties and responsibilities;
    • The EDGAR Momentum system used to track filing fees refund
       requests is appropriate;
    • Filing fees backlogs and dormant accounts are properly
       administered and managed; and
   • Filing fees refunds are disbursed by Treasury to the appropriate
      registrants as requested.

Additionally, Williams Adley was asked to identify best practices and suggest
areas for improving the filing fees process, where appropriate.




Audit of the SEC’s Filing Fees Program                                  March 29, 2013
Report No. 514
                                         Page 3
             Findings and Recommendations

Finding 1: Filing Fees Policies and Procedures
Can be Improved
       OFM should strengthen internal controls over policies and
       procedures to prevent unauthorized requests for filing fees
       refunds. Specifically, OFM’s internal guide OFM Reference
       Guide, Chapter 80.03, Filing Fee Revenue (OFM Reference
       Guide), August 2012, for filing fees does not require FFB
       staff verify registrant’s bank account information or that
       EDGAR sends an automated electronic notice to registrants
       indicating a request for a filing fee refund has been received.
       As a result, there is a risk that an unauthorized request for
       refunds could occur. In addition, OFM has not established
       timelines for clearing cancelled refund checks.

OFM Should Strengthen Internal Controls to Prevent
Unauthorized Requests for Refunds

OFM does not have a process for confirming registrant bank information. A
registrant can send a letter on the firm’s letterhead to OFM to request a refund be
sent to a physical address, or deposited into the registrant’s bank account. A
registrant can also initiate a written request in response to a letter/notice that
OFM sends informing them their account will become dormant within 30 days,
unless the registrant responds within 30 days to claim the refund. An account is
considered dormant when there has been no deposit, withdrawal or other
adjustment to it for three or more years.

When written requests are received from registrants seeking a refund, FFB staff
verifies the letterhead of the request, Central Index Key (CIK) and address
matches the registrant’s information in the EDGAR system. However, our audit
found that FFB staff does not verify the registrant’s bank account information that
is provided to process the refund payment, and EDGAR does not send an
automated electronic notice to the registrant indicating a filing fees refund
request was received, because OFM’s Reference Guide covering FFB’s policies
and procedures does not require these procedures. Our audit determined that if
registrants could initiate on-line requests through EDGAR using their CIK and a
password, the risk that refunds could go to an unauthorized person or to an
incorrect bank account would be reduced.



Audit of the SEC’s Filing Fees Program                                   March 29, 2013
Report No. 514
                                         Page 4
17 C.F.R. § 202.3a (e) provides guidance for processing registrants’ refund
requests. Specifically, the guidance states that,

       Funds held in any filing fees account in which there has not been a
       deposit, withdrawal or other adjustment for more than three years
       will be returned to the account holder, and account statements will
       not be sent again until a deposit, withdrawal or other adjustment is
       made with respect to the account. Filers must maintain a current
       account address to assure the timely return of funds. It may not be
       possible to return funds from inactive accounts if the Commission is
       unable to identify a current account address of an account holder
       after making reasonable efforts to do so.

Because the OFM Reference Guide does not have policies and procedures
related to confirming registrant bank information, OFM could be exposed to
embezzlement or other fraudulent activities by paying a refund to an
unauthorized individual. However, it should be noted that our audit did not reveal
any instances of fraud.

OFM Lacks Established Timelines for Clearing Cancelled Refund
Checks

OFM should strengthen its policies and procedures related to clearing cancelled
refund checks to ensure a reasonable timeframe is established to reconcile
cancelled checks. Cancelled refund checks typically are the result of bank
closures, stale and dated checks, and changes to the registrant’s banking
account data.

We tested a sample universe of 18,181 refund transactions and found OFM’s
procedures to account for cancelled checks did not include a definitive timeframe
for reconciling cancelled checks. This lack of policy resulted in OFM not
reconciling and clearing $3,096,706 in payments for cancellation transactions
during fiscal years 2004 to 2010. The results of a GAO recommendation in the
SEC’s fiscal year 2010 financial statement audit resulted in OFM hiring
contractors to reconcile the accounts. OFM returned the funds related to these
cancelled refund checks to the registrant’s accounts or to Treasury in fiscal years
2010 and 2011.

The OFM Reference Guide, Section 5.17, discusses refund cancellations and
reissues. However, the procedures do not address the timeframe for clearing
transactions. OFM not having a reasonable timeframe for clearing transactions
could contribute to delays in refunding registrant funds and/or increases the risk
the SEC could improperly account for refund cancellations and reissues.



Audit of the SEC’s Filing Fees Program                                March 29, 2013
Report No. 514
                                         Page 5
   Recommendation 1:

   The Office of Financial Management should, within budget constraints, modify
   the Electronic Data Gathering and Retrieval System (EDGAR) to generate an
   electronic confirmation letter or notice to registrants when a request for a
   refund is made.

   Management Comments. OFM concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OFM concurred with this recommendation.
   OIG considers this recommendation resolved. However, the recommendation
   will remain open until documentation is provided to OIG that supports it has
   been fully implemented.

   Recommendation 2:

   The Office of Financial Management (OFM) should, within budget constraints,
   implement a policy requiring registrants initiate refunds on-line through the
   Electronic Data Gathering and Retrieval System (EDGAR) using a Central
   Index Key and password. Once this is done, OFM should phase out accepting
   written refund requests from registrants.

   Management Comments. OFM concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OFM concurred with this recommendation.
   OIG considers this recommendation resolved. However, the recommendation
   will remain open until documentation is provided to OIG that supports it has
   been fully implemented.

   Recommendation 3:

   The Office of Financial Management should include in its processes and
   procedures a definitive and reasonable timeline for reconciling cancelled
   refund transactions.

   Management Comments. OFM concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OFM concurred with this recommendation.
   OIG considers this recommendation resolved. However, the recommendation
   will remain open until documentation is provided to OIG that supports it has
   been fully implemented.



Audit of the SEC’s Filing Fees Program                              March 29, 2013
Report No. 514
                                         Page 6
Finding 2: Review Procedures over Registrant
Deposit Accounts Should Be Completed
           OFM’s review of non-dormant registrant accounts2 has not
           been fully completed. In fiscal year 2013, OFM implemented
           a review process for non-dormant registrant accounts that is
           based primarily on conducting a cost-benefit analysis. While
           this process identifies unrecognized revenue and estimates
           the financial statement risk, the agency is still at risk of not
           properly reporting revenue because the review process for
           some older accounts have not been fully completed.

Filing Fees Backlog

GAO’s fiscal year 2011 financial statement audit found the SEC had not
effectively addressed previously reported internal control deficiencies in its
process to timely recognize filing fees revenue. The fiscal year 2011 and 2010
financial audits identified $2.3 million and $1.9 million, respectively, in revenue
that was not properly recognized.

During fiscal year 2011, OFM performed a risk assessment and identified the
following risks related to filing fee transactions:

           Risk 1 - Filing fee revenue is not complete because the registrant
           filed using the wrong form and, therefore, no fee was paid or a
           lower fee rate was used resulting in understated revenue.

           Risk 2 - Revenue presented on the financial statements does not
           exist either because; (1) recorded revenue is not consistent with
           EDGAR or (2) revenue was recognized for filings that were not
           effective or revenue was recognized for an incorrect amount.

           Risk 3 – Revenue is not complete because some amounts included
           in the registrant deposit liability should have been recognized as
           revenue in the current or a prior period.

In fiscal year 2012, OFM tested these risk areas and based on a statistical
sample found that any errors would be within a tolerable limit for financial
statements.

OFM is in the process of reviewing non-dormant registrant accounts, based on
the estimated costs and benefits for reviewing each one. Specifically, for non-

2
    Non-dormant registrant accounts are accounts that had activity within the past three years.
Audit of the SEC’s Filing Fees Program                                                        March 29, 2013
Report No. 514
                                                    Page 7
dormant accounts with balance equal to or greater than $1,000 or billings over
$100,000, FFB staff performs an audit of the account balance to identify and
correct any errors in recording revenue over the life of the account. Phase one of
this process is expected to be completed by the end of March 2013. Phase two
is expected to be completed in March 2014. While OFM believes any errors that
may be found in the registrant accounts will not be material to financial reporting,
completing a review of cost-beneficial non-dormant accounts could confirm the
amount of any errors.

For dormant registrant deposit accounts3 with balances equal to or greater than
$1,000, FFB staff performs an audit of the account balance to identify and correct
any errors in recording revenue over the life of the account. For registrant
deposit accounts with balances of less than $1,000, an audit of the account
balance is not performed.

FFB staff performs a number of steps to ensure revenue is presented fairly in the
financial reports. For example, they will validate the:

       (1) Fee calculation in EDGAR,
       (2) Information in the official filings is correct and consistent with SEC
           rules, and
       (3) Filers have filed the appropriate forms for their business purpose.

In addition, they perform a number of compensating controls, such as reviewing
unapplied cash receipts, monitoring accounts receivables, and performing a third
review of transactions on a sample basis.

The SEC’s Staff Accounting Bulletin No. 101, December 3, 1999 (SAB 101)
provides guidance to auditors and public companies on recognizing, presenting
and disclosing revenue in financial statements. According to SAB 101, revenue
is recognized once the following criteria are met:

       •   There is persuasive evidence of an arrangement.
       •   Delivery has occurred or services have been rendered.
       •   The seller’s price to the buyer is fixed or determinable.
       •   Collectability is reasonably assured.

FFB’s staff completion of the independent reviews will help to ensure timely and
accurate financial statement reporting of revenues.

       Recommendation 4:

       The Office of Financial Management should complete its review of non-dormant
       registrant accounts based on the cost-benefit analysis the office devised.

3
    Dormant registrant accounts had no activity within the past three years.
Audit of the SEC’s Filing Fees Program                                         March 29, 2013
Report No. 514
                                                    Page 8
   Management Comments. OFM concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OFM concurred with this recommendation.
   OIG considers this recommendation resolved. However, the recommendation
   will remain open until documentation is provided to OIG that supports it has
   been fully implemented.




Audit of the SEC’s Filing Fees Program                            March 29, 2013
Report No. 514
                                         Page 9
                                                                Appendix I


                                  Abbreviations


                      CIK        Central Index Key
                      EDGAR      Electronic Data Gathering
                                 Analysis and Retrieval
                                 System
                      FFB        Filing Fees Branch
                      GAO        U.S. Government
                                 Accountability Office
                      OFM        Office of Financial
                                 Management
                      OIG        Office of Inspector General
                      SAB 101    Staff Accounting Bulletin
                                 101
                      SEC or     U.S. Securities and
                      Commission Exchange Commission
                      Treasury   U.S. Department of the
                                 Treasury




Audit of the SEC’s Filing Fees Program                         March 29, 2013
Report No. 514
                                         Page 10
                                                                      Appendix II


                         Scope and Methodology

Williams Adley conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. The OIG contracted with Williams Adley to conduct a performance audit
to identify weaknesses and areas for improvement with regard to the filing fees
refund request process. We were asked to determine whether OFM’s current
internal controls, safeguards and verification requests for the filing fees refund
process were in place and operating effectively. The scope of our audit covered
filing fees refund requests that were made to the OFM’s fee account services
branch and were paid for the period January 2008 to March 2012. Williams
Adley conducted its fieldwork at SEC Headquarters in Washington, D.C. from
July 2012 to February 2013.

Methodology. To determine if OFM had developed written policies and
standard operating procedures covering oversight of the filing fees program,
Williams Adley reviewed SEC’s regulations and policies and procedures
pertaining to the Filing Fees Refund process. We also reviewed relevant federal
laws, regulations and guidance. We reviewed SEC’s Performance and
Accountability Reports to determine the impact of GAO’s findings on our audit
procedures and to determine the status of applicable recommendations. We
conducted interviews with select personnel in the Filing Fees and General
Accounting Branch who had responsibilities related to the filing fees refund
process. Williams Adley performed a walkthrough of the filing fees refund
process including obtaining documentation used in the process. We identified
areas in which improvements could be made.

To determine if filing fees staff are adequately trained and have the requisite
skills needed to carry out their duties and responsibilities, Williams Adley
reviewed OFM’s staff training policies and plan. We conducted interviews with
select personnel in the Filing Fees and General Accounting Branch who had
responsibilities related to the OFM training process. We obtained, reviewed and
analyzed the training material to determine if it was sufficient. We also reviewed
and analyzed the FFB staff backgrounds and qualifications to determine their
adequacy for the positions they held. Williams Adley identified some insignificant
areas in which improvements could be made. However, we believe that overall
training of FFB staff is adequate and that they have the requisite skills needed to
carry out their duties and responsibilities.


Audit of the SEC’s Filing Fees Program                               March 29, 2013
Report No. 514
                                         Page 11
                                                                       Appendix II


To determine if the EDGAR Momentum system used to track filing fees refund
requests is appropriate, Williams Adley reviewed related OFM and OIG
documentation to help us obtain an understanding of the system used to track
filing fees refund requests. We prepared a system process memorandum and
conducted a system walkthrough with the FFB. We conducted interviews with
the staff in FFB and select GAO personnel who had responsibilities related to the
EDGAR Momentum system. We reviewed the system reference materials, the
EDGAR documents, and sample reports. We reviewed and analyzed the
EDGAR Momentum user roles. Williams Adley performed system access and
change testing. We analyzed the Statement on Standards for Attestation
Engagements No. 16 report for U.S. Bancorp Lockbox system and the potential
impact on the audit. We did not identify areas in which improvements could be
made.

To determine if filing fees backlogs and dormant accounts are properly
administered and managed, Williams Adley conducted interviews with FFB select
personnel who had responsibilities related to the administration of the filing fees
backlogs and dormant accounts. We randomly selected three samples for
testing from the population of refund transactions for the period January 2008 to
March 2012: 45 refund transactions greater than $1,000; 45 refund transactions
less than $1,000; and 15 negative refund transactions. We also judgmentally
selected a sample of what appeared to be 20 duplicate transactions. We
obtained, reviewed and analyzed the filing fees refund packet for the selected
transactions. According to the SEC’s fiscal year 2011 Performance and
Accountability Report, as of September 30, 2011, there were 2,042 dormant
registrant accounts that totaled over $12 million. As of February 28, 2013, there
were 22 dormant accounts that were more than 30 days past the three-year
cutoff that amounted to $129,000. Also, there were 69 accounts that became
dormant that were less than 30 days past the three-year cutoff that amounted to
$51,000 and there were 118 accounts nearing dormancy that amounted to
$105,000. SEC hired contractors to assist in reducing the number of dormant
accounts to a level that we no longer consider this issue to be a problem. We
identified areas where improvements could be made.

To determine whether the disbursements from Treasury are sent to the
appropriate registrants as requested, Williams Adley performed refund
disbursement confirmation testing. From the population of the samples that were
selected for testing, we identified 25 registrant initiated refund requests and used
those 25 as our sample for Refund Disbursement Confirmation Testing. We
compared the refund request packages and SEC reviews provided by EDGAR
Momentum to Secure Payment System confirmations from Treasury to determine
if the refund disbursements have been processed and sent to the registrants with
the same name, address/bank account, amount and the disbursement dates that
are after EDGAR Momentum submission dates.



Audit of the SEC’s Filing Fees Program                                March 29, 2013
Report No. 514
                                         Page 12
                                                                     Appendix III


                                         Criteria

17 C.F.R. § 202.3a (e). “Funds held in any filing fees account in which there has
not been a deposit, withdrawal or other adjustment for more than three years will
be returned to the account holder, and account statements will not be sent again
until a deposit, withdrawal or other adjustment is made with respect to the
account. Filers must maintain a current account address to assure the timely
return of funds. It may not be possible to return funds from inactive accounts if
the Commission is unable to identify a current account address of an account
holder after making reasonable efforts to do so.”

U.S. Securities and Exchange Commission SAB 101. Provides guidance to
auditors and public companies on recognizing, presenting and disclosing
revenue in financial statements. According to SAB 101 revenue is recognized
once the following criteria are met:

   •   There is persuasive evidence of an arrangement.
   •   Delivery has occurred or services have been rendered.
   •   The seller’s price to the buyer is fixed or determinable.
   •   Collectability is reasonably assured.




Audit of the SEC’s Filing Fees Program                              March 29, 2013
Report No. 514
                                          Page 13
                                                                       Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Financial Management should, within budget constraints, modify
the Electronic Data Gathering and Retrieval System (EDGAR) to generate an
electronic confirmation letter or notice to registrants when a request for a refund
is made.

Recommendation 2:

The Office of Financial Management (OFM) should, within budget constraints,
implement a policy requiring registrants initiate refunds on-line through the
Electronic Data Gathering and Retrieval System (EDGAR) using a Central Index
Key and password. Once this is done, OFM should phase out accepting written
refund requests from registrants.

Recommendation 3:

The Office of Financial Management should include in its processes and
procedures a definitive and reasonable timeline for reconciling cancelled refund
transactions.

Recommendation 4:

The Office of Financial Management should complete its review of non-dormant
registrant accounts based on the cost-benefit analysis the office devised.




Audit of the SEC’s Filing Fees Program                                 March 29, 2013
Report No. 514
                                         Page 14
                                                   Appendix V


                        Management Comments




Audit of the SEC’s Filing Fees Program             March 29, 2013
Report No. 514
                                         Page 15
                    Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




                SEC OIG Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
